HHS/OIG, Audit -"Review of Clinical Laboratory Services Paid by the Georgia Department of Community Health During the Period of October 1, 1996 Through June 30, 1999,"(A-04-01-05002)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of Clinical Laboratory Services Paid by the Georgia Department of Community Health During the Period of
October 1, 1996 Through June 30, 1999," (A-04-01-05002)
January 9, 2002
Complete
Text of Report is available in PDF format (892 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our review, performed in conjunction with the Georgia Department of Audits, identified improper laboratory service payments
of $1,762,835 (Federal share $1,072,639) by the Georgia Department of Community Health for the period October 1, 1996 through
June 30, 1999.  The overpayments resulted from inadequate edits and audits in the claims processing system.  We
recommended that the State adjust the HCFA-64 report for the Federal portion of the overpayments, initiate recovery from
providers for the full overpayment amounts and correct the deficiencies in their claims processing system.